App. 1
FOR PUBLICATION
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
No. 18-16536
PAUL G., a conserved adult; by
and through his conservator
D.C. No.
Steve G.,
5:16-cv-05582-BLF
Plaintiff-Appellant,
OPINION
v.
MONTEREY PENINSULA UNIFIED
SCHOOL DISTRICT; CALIFORNIA
DEPARTMENT OF EDUCATION,
Defendants-Appellees.
Appeal from the United States District Court
for the Northern District of California
Beth Labson Freeman, District Judge, Presiding
Argued and Submitted June 13, 2019
San Francisco, California
Filed August 12, 2019
Before: Mary M. Schroeder and Milan D. Smith, Jr.,
Circuit Judges, and Jed S. Rakoff,* District Judge.
Opinion by Judge Schroeder

*
e Honorable Jed S. Rakoﬀ, United States District Judge for the
Southern District of New York, sitting by designation.

App. 2
COUNSEL
Daniel R. Shaw (argued), Shaw Firm, San Luis Obispo,
California; Christian Knox, F. Richard Ruderman, and
Colleen A. Snyder, Ruderman and Knox LLP, Sacramento, California; for Plaintiff-Appellant.
Leonard Bruce Garfinkel (argued), Deputy General
Counsel; Todd M. Smith and Edmundo R. Aguilar,
Assistant General Counsel; Amy Bisson Holloway,
General Counsel; California Department of Education,
Sacramento, California; for Defendants-Appellees.
OPINION
SCHROEDER, Circuit Judge:
The parents of Paul G. (“Paul”), an autistic child,
seek damages because the placement they believe
their child should have received under the Individuals
with Disabilities Education Act (“IDEA”) is not available in California. They filed this action under the
Americans with Disabilities Act (“ADA”) and Section
504 of the Rehabilitation Act of 1973. The district court
dismissed their complaint for failure to exhaust their
administrative remedies under the IDEA. We affirm.
Plaintiffs failed to exhaust because they settled their
IDEA case without receiving an administrative decision on whether Paul needed the placement they now
assert was required for him to receive a free and appropriate public education (“FAPE”).
Paul is an adult student whose family resides
near Monterey, California. His is a sad story of failed

App. 3
attempts to place him in an appropriate educational
facility. During elementary school and early high
school, Paul was enrolled as a special education student
in the Monterey Peninsula Unified School District.
During his junior year in high school (2014–15), he
began having episodes of violent and threatening behavior towards the school staff and fellow students.
After unsuccessful efforts to provide instruction at
home and in the local library, the school district in July
of 2015 held an Individualized Education Plan (“IEP”)
meeting and offered to place Paul in a residential facility. Because he was by then 18 years old, however, no
residential facility in the state would accept him. Paul
subsequently enrolled in a residential facility in Kansas, but became homesick and returned to California.
Paul’s counsel initiated IDEA administrative proceedings in August 2015, seeking a due process hearing with the California Office of Administrative
Hearings (OAH). His complaint alleged he had been
denied a FAPE guaranteed under the IDEA. He sought
a residential placement in California, monetary damages, and an order directing the California Department of Education (“CDE”) and the school district to
develop in-state residential placements for adult students like Paul.
OAH dismissed the claims against the state, ruling that the agency did not have jurisdiction to order
the creation of facilities for students over 18, and that
the school district, not the state, was responsible for
education decisions affecting Paul. Paul then entered
into a settlement agreement with the school district in

App. 4
which OAH dismissed the case without ever ruling on
his claim that the lack of an in-state residential facility
had denied him a FAPE.
Paul filed this action in federal court in September
2016, following the settlement with the school district.
His complaint alleged that CDE violated the Rehabilitation Act and the ADA. The gravamen of his complaint was that to receive a FAPE he required a
residential placement, and the state had failed to provide him one in California. He sought monetary damages and an injunction.
The complaint did not and could not allege that
Paul’s IEP required a placement in California; he had
not obtained such a decision from the OAH. The CDE
therefore moved to dismiss on the ground that Paul
could not pursue claims against the CDE for failure to
provide a FAPE when he had no IEP requiring an instate placement. The district court dismissed for failure to exhaust administrative remedies as required by
the IDEA. See 20 U.S.C. § 1415(l).
Paul’s district court complaint alleged discrimination in violation of the Rehabilitation Act and the ADA;
it did not allege a violation of the IDEA. The IDEA is
nevertheless key in this case because it is that federal
law that guarantees individually-tailored educational
services for children with special educational needs.
See id. §§ 1400(d)(1)(A), 1401(29). It provides for a
FAPE that must conform to a student’s IEP, which is a
program detailing the student’s abilities, educational
goals, and specific services that are designed to achieve

App. 5
those goals within a designated time frame. See id.
§§ 1412(a)(4), 1436(d).
The IDEA also contains procedural protections
for the resolution of disputes over what services must
be provided. There must be an opportunity for mediation, an impartial due process hearing, and an appeals
process. See id. § 1415(e)–(g). In California, the CDE
contracts with the OAH to provide these remedies.
See Cal. Educ. Code § 56504.5(a). The OAH decision
is a final administrative decision, see 20 U.S.C.
§ 1415(i)(1)(A), and either the parent or the public
agency may seek judicial review by filing a civil action
in district court within 90 days, see id. § 1415(i)(2). The
statute provides that where the relief sought under
other statutes is also available under the IDEA, the
IDEA’s administrative procedures must have been
exhausted:
Nothing in this chapter shall be construed to
restrict or limit the rights, procedures, and
remedies available under the Constitution,
the Americans with Disabilities Act of 1990,
title V of the Rehabilitation Act of 1973, or
other Federal laws protecting the rights of
children with disabilities, except that before
the filing of a civil action under such laws
seeking relief that is also available under this
subchapter, the procedures under subsections
(f ) and (g) shall be exhausted to the same extent as would be required had the action been
brought under this subchapter.
20 U.S.C. § 1415(l).

App. 6
This Court, however, has identified certain exceptions to the exhaustion rule. In the seminal case, Hoeft
v. Tucson Unified School District, 967 F.2d 1298 (9th
Cir. 1992), we held that exhaustion is not required
when (1) use of the administrative process would be
“futile,” (2) the claim arises from a policy or practice “of
general applicability that is contrary to law,” or (3) it is
“improbable that adequate relief can be obtained by
pursuing administrative remedies (e.g. the hearing
officer lacks the authority to grant the relief sought).”
Id. at 1303–04 (citing H.R. Rep. No. 296 99th Cong, 1st
Sess. 7 (1985)).
Paul’s position is that California has unlawfully
discriminated against him by not providing a residential educational facility for adult students in the
state who, like Paul, require such a facility in order
to receive a FAPE. He argues he need not exhaust
because his claims seek relief for disability discrimination and that even if his claims do involve denial
of a FAPE, they fall under the exhaustion exceptions.
The fundamental problem with Paul’s position in
the view of the district court, and in ours, is that he has
no IEP that requires such an in-state placement. He
settled his claim with the school district that had
sought such an IEP. His existing IEP provides only for
a residential placement. The district court therefore
properly dismissed for failure to exhaust administrative remedies.

App. 7
On appeal, he stresses that he is not claiming any
violation of the IDEA. Instead, he brought suit under
the ADA and Rehabilitation Act. The Supreme Court
has recently provided guidance as to when there must
be administrative exhaustion in a case purportedly
invoking statutes other than the IDEA. See Fry v. Napoleon Cmty. Sch., 137 S. Ct. 743 (2017). The Court instructed us to determine whether “the gravamen of the
plaintiff ’s suit is something other than the denial of
the IDEA’s core guarantee—. . . ‘a free appropriate
public education.’ ” Id. at 748 (quoting § 1412(a)(1)(A)).
In Fry the suit alleged the ADA and the Rehabilitation
Act’s discrimination provisions were violated when a
young girl disabled by cerebral palsy was not permitted to bring her service dog to school. Id. at 751. Looking to the gravamen of the suit, the Court concluded
that the plaintiff ’s suit did not concern the denial of a
FAPE. Id. at 758. It held that the case instead concerned the denial of access to public facilities. See id.
Relief was therefore not available under the IDEA.
Exhaustion therefore was not required.
The crucial issue is therefore whether the relief
sought would be available under the IDEA. See 20
U.S.C. § 1415(l). The Court provided clues for courts to
decide that question, including “whether the plaintiff
could have brought essentially the same claim if the
alleged conduct had occurred at a public facility that
was not a school, and . . . whether an adult at the
school could have pressed essentially the same grievance.” Fry, 137 S. Ct. at 756. The Court also said that
one good indication that the plaintiff is seeking relief

App. 8
for denial of a FAPE is whether the plaintiff previously
invoked administrative remedies. Id. at 757. Since a
dog would not be among the services a school district
would ordinarily provide in a FAPE, and the plaintiff
in that case had never invoked administrative remedies to obtain such a FAPE, the gravamen of the Fry
complaint was not an IDEA claim.
In this case, Paul could not have brought the same
claims against a public facility that was not a school,
nor could an adult employee or visitor present the
same grievance, because the relief Paul seeks is fundamentally educational—access to a particular kind of
school as required by his IEP. See id. at 756 (claims are
based on the IEP when access is “adequacy of special
education” and not “equality of access to public facilities”). Further, Paul pursued remedies under IDEA
and after settlement switched gears to turn to other
remedies. This is almost precisely the scenario the
Supreme Court in Fry described as an indicator of an
IDEA claim requiring exhaustion. As the Court explained, an initial decision to pursue the administrative process and a later shift to judicial proceedings
prior to full exhaustion is a strong indication that the
plaintiff is making “strategic calculations about how
to maximize the prospects of such a remedy.” Id. at
757.
The district court understood that because Paul’s
claim is that an in-state residential institution is necessary for him to receive the education guaranteed
under the IDEA, he must exhaust his administrative
remedies for an IEP. Applying Fry, the district court

App. 9
held that the “alleged denial to provide an in-state residential treatment facility applies solely in a school
setting” and the fact that Paul “previously pursued an
IDEA administrative proceeding based on identical or
similar allegations supports the conclusion that his
claims are premised on a denial of a FAPE.” We agree
with that conclusion.
Other circuit decisions since Fry have reached
similar conclusions. In Wellman v. Bulter Area School
District, the Third Circuit concluded that the student’s
“grievances all stem from the alleged failure to accommodate his condition and fulfill his educational needs”
and dismissed the complaint because the student released all claims related to the FAPE denial in a settlement agreement with the school district. 877 F.3d
125, 133 (3d Cir. 2017). In Nelson v. Charles City Community School District, the Eighth Circuit affirmed
the district court’s conclusion that the student’s complaint sought relief available under the IDEA because
the denial of the student’s request for online classes
was directly related to the student’s IEP. 900 F.3d 587,
595 (8th Cir. 2018). In Durbrow v. Cobb County School
District, a student with Attention Deficit Hyperactivity Disorder filed a due process complaint alleging the
school district failed to evaluate him for disabilities.
887 F.3d 1182, 1187 (11th Cir. 2018). The Eleventh Circuit concluded the gravamen of the student’s § 504 and
ADA claims in the district court was denial of a FAPE
because the claims focused on the adequacy of the
educational program the school district afforded the
student. Id. at 1190. Exhaustion was required. Here,

App. 10
like our sister circuits, we conclude Paul was required
to exhaust the IDEA procedural process because his
§ 504 and ADA claims concern whether he was provided appropriate educational services.
Paul argues that even if his claims do concern the
denial of a FAPE, they fall under all three exhaustion
exceptions: (1) the administrative process would be
“futile,” (2) the claim arises from a policy or practice “of
general applicability that is contrary to law,” or (3) it is
improbable “that adequate relief can be obtained by
pursuing administrative remedies (e.g. the hearing
officer lacks the authority to grant the relief sought).”
Hoeft, 967 F.2d at 1303–04.
Paul suggests that he seeks relief for “a policy or
practice of general applicability that is contrary to the
law” because CDE failed to provide residential placements for disabled students over the age of eighteen. A
claim is systemic, and therefore entitled to the general
applicability exception, if it concerns “the integrity or
reliability of the IDEA dispute resolution procedures
themselves, or requires restructuring the education
system itself in order to comply with the dictates of the
Act.” Doe ex rel. Brockhuis v. Ariz. Dep’t of Educ., 111
F.3d 678, 682 (9th Cir. 1997). Here, however, Paul seeks
relief related to only one component of the school district’s special education program—in-state residential
facilities for adult students. See id.; see also Hoeft, 967
F.2d at 1308.

App. 11
Paul also contends exhaustion would have been
futile and inadequate because, when he filed his due
process administrative complaint against the school
district and the CDE, the OAH dismissed the CDE on
the ground that it could not order the state to create a
whole new facility. The OAH concluded it lacked jurisdiction to order “structural and systemic statewide relief.” Paul then settled the claim against the school
district without obtaining any decision on his claim
that the lack of in-state placement denied him a FAPE.
He now argues it would have been futile to pursue the
IDEA claim because the state could not be required to
provide the facility.
A principal purpose of requiring administrative
exhaustion, however, is to ensure the agency has had
an opportunity to rule on a claim before a plaintiff goes
to court. See Payne v. Peninsula Sch. Dist., 653 F.3d
863, 875–76 (9th Cir. 2011). Thus, if the plaintiff is
claiming a violation of the IDEA, the plaintiff must
take that claim through the administrative process.
The Supreme Court in Fry reiterated the principle in
clear terms. Fry, 137 S. Ct. at 756–57. In this case, Paul
is claiming that the state must provide him with an instate residential placement and must pay damages for
failing to do so. The only basis for such a claim is that
such a placement is required under the IDEA. The
agency’s dismissal of the state does not excuse Paul’s
failure to pursue the claim against the school district,
because that was the only way to obtain an administrative ruling on his claim that he was denied a FAPE.
Thus, as the district court correctly concluded, Paul

App. 12
may not maintain this action after he failed to seek a
final administrative decision regarding his alleged
need for in-state residential education.
AFFIRMED.

App. 13
UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF CALIFORNIA
SAN JOSE DIVISION
PAUL G.,

Case No. 16-cv-05582-BLF

ORDER GRANTING
DEFENDANT
v.
CALIFORNIA
MONTEREY PENINSULA DEPARTMENT OF
UNIFIED SCHOOL
EDUCATION’S
DISTRICT, et al.,
MOTION TO DISMISS
SECOND AMENDED
Defendants.
COMPLAINT
WITHOUT LEAVE
TO AMEND
Plaintiff,

(Filed Jun. 8, 2018)
[Re: ECF 55]
Plaintiff Paul G. brings this suit against Defendants Monterey Peninsula Unified School District and
California Department of Education based on their
purported denial of educational services. Seeking injunctive relief, Paul asks this Court to require the California Department of Education (“CDE”) to develop
policies and procedures to ensure that residential
treatment facilities for qualifying special education
students age 18 to 22 are available in California. Second Am. Compl. (“SAC”) ¶ 79, ECF 50. Paul also requests monetary damages. Id. ¶¶ 76–78. Before the
Court is the CDE’s motion to dismiss the SAC. Mot.,
ECF 55. Having considered the briefing and oral

App. 14
argument, as well as the governing law, the Court
GRANTS the CDE’s motion to dismiss the SAC without leave to amend for the reasons stated below.
I.

BACKGROUND

Paul is a special education student on the autism
spectrum and has been conserved by his parents due
to the severity of his needs.1 SAC ¶¶ 14, 16. Paul’s disability impacts him in many areas including academics, social/emotional functioning, speech and language,
and daily living skills. Id. ¶ 14. For example, Paul will
often “shut down, refuse to work, and engage in socially
inappropriate behavior.” Id. ¶ 17.
Paul attended the 2014-2015 school year in the
eleventh grade at Marina High School located within
the Monterey Peninsula Unified School District (“District”). SAC ¶ 20. Paul’s father was routinely called to
pick up Paul from school due to his behavior. Id. ¶ 21.
Paul learned that he could escape non-preferred tasks
such as doing school work or even being at school if he
engaged in improper behavior such as assaulting staff,
urinating his pants, and eloping from the classroom.
Id. ¶ 22. Paul’s behavior worsened and the District
eventually placed him on home hospital instruction in
February 2015. Id. ¶¶ 22, 28.
On July 14, 2015, Paul was brought to a public library to receive home hospital instruction. SAC ¶ 35.
1

The SAC states that Paul is 19 years old. SAC ¶ 14. The
CDE understands that Paul is now 20 years old. Mot. 6 n.1.

App. 15
However, the home hospital teacher was not adequately trained to work with Paul. Id. After a short
break, the teacher told Paul to “be quiet” and caused
Paul to attempt to elope from the library and run to his
father’s car. Id. ¶ 36. As he attempted to run outside,
Paul knocked an elderly lady to the ground causing injury. Id. ¶ 37. Due to this incident, Paul was charged
with three felonies and was not permitted to leave California pending resolution of his criminal charges. Id.
¶ 38.
A few days later, on July 20, 2015, the District convened an Individualized Education Plan (“IEP”) meeting and offered to place Paul in a residential treatment
facility. SAC ¶ 39. However, because Paul was eighteen
years old, there was no facility in California that would
accept him. Id. In September 2015, the District invited
the CDE to Paul’s IEP meeting. Id. ¶ 40. But the CDE
informed Paul and the District that the CDE would not
participate in the IEP meeting. Id.
Paul requested a due process hearing with the Office of Administrative Hearings (“OAH”) on August 25,
2015. SAC ¶ 33. In his due process complaint, Paul alleged that the CDE and the District had denied Paul a
free and appropriate public education (“FAPE”) by failing to ensure that an appropriate residential treatment facility was available to him. Id. Regarding the
CDE, the complaint alleged that the CDE “failed to ensure [that] residential placements are available for
students eighteen to twenty-two years of age” and as a
result many developmentally delayed students are
“swallowed up by the adult criminal system.” Id.

App. 16
The OAH dismissed the complaint against the
CDE on the grounds that the relief requested was “beyond the jurisdiction of the OAH in a due process case”
and the OAH had no authority to order the “type of
statewide policy changes Paul’s parents sought on his
behalf.” SAC ¶ 50. In January 2016, the District and
Paul’s parents settled past claims under the Individuals with Disabilities Education Act (“IDEA”) but excluded from the settlement “any tort claim, any
negligent claim, and/or any civil rights claim.” Id. ¶ 52.
About a month later, on February 23, 2016, Paul
was placed at Lakemary Center, a residential treatment facility in Kansas. SAC ¶ 53. Since being in
placement, Paul has become homesick. Id. ¶ 58. He has
asked his parents to move to Kansas to be closer to
him.2 Id.
On September 30, 2016, Paul filed this action
against the District and CDE. ECF 1. The Court
granted the CDE’s motion to dismiss the first amended
complaint (“FAC”). ECF 46. Specifically, Paul’s IDEA
claims were dismissed without leave to amend as being
barred by the statute of limitations. Id. Paul’s claims
based on § 504 of the Rehabilitation Act of 1973 and
the Americans with Disabilities Act were dismissed
with leave to amend. Id.
Paul subsequently filed the operative SAC, asserting the following claims against the District and CDE:
2

During the hearing, Paul’s counsel stated that Paul has
moved back to California and is no longer placed at a residential
treatment facility in accordance with his current IEP.

App. 17
(1) violation of § 504 of the Rehabilitation Act of 1973,
and (2) violation of Title II of the Americans with Disabilities Act. SAC ¶¶ 62–75. Regarding the CDE, the
SAC alleges that the CDE has failed to develop policies
or procedures to ensure that in-state residential placements are available for adult special education students. Id. ¶ 48. On this basis, the SAC pleads that the
CDE has interfered with the students’ rights to receive
a FAPE in the least restrictive setting. Id. The SAC
further alleges that, from about July 2015 to February
2016, Paul had no educational program consistent with
his IEP because it required placement in a residential
treatment center. Id. ¶ 51. According to Paul, his
“[IEP]—which the Ninth Circuit has called a contract—could not be implemented.” Id. As part of his relief, Paul seeks an injunction requiring the CDE to
develop policies and procedures to ensure that in-state
residential placements are available to adult special
education students. Id. ¶ 79. The CDE now moves to
dismiss the claims against it.
II.

LEGAL STANDARD
A. Fed. R. Civ. Proc. 12(b)(6)

“A motion to dismiss under Federal Rule of Civil
Procedure 12(b)(6) for failure to state a claim upon
which relief can be granted ‘tests the legal sufficiency
of a claim.’ ” Conservation Force v. Salazar, 646 F.3d
1240, 1241–42 (9th Cir. 2011) (quoting Navarro v.
Block, 250 F.3d 729, 732 (9th Cir. 2001)). When determining whether a claim has been stated, the Court

App. 18
accepts as true all well-pled factual allegations and
construes them in the light most favorable to the plaintiff. Reese v. BP Exploration (Alaska) Inc., 643 F.3d 681,
690 (9th Cir. 2011). However, the Court need not “accept as true allegations that contradict matters
properly subject to judicial notice” or “allegations that
are merely conclusory, unwarranted deductions of fact,
or unreasonable inferences.” In re Gilead Scis. Sec.
Litig., 536 F.3d 1049, 1055 (9th Cir. 2008) (internal
quotation marks and citations omitted). While a complaint need not contain detailed factual allegations, it
“must contain sufficient factual matter, accepted as
true, to ‘state a claim to relief that is plausible on its
face.’ ” Ashcroft v. Iqbal, 556 U.S. 662, 678 (2009) (quoting Bell Atl. Corp. v. Twombly, 550 U.S. 544, 570 (2007)).
A claim is facially plausible when it “allows the court
to draw the reasonable inference that the defendant is
liable for the misconduct alleged.” Id.
B. Judicial Notice
After briefing was closed, Paul submitted a request for judicial notice of two decisions, attached to
the request as Exhibits 1 and 2: (1) Order Granting in
Part and Denying in Part Mot. to Dismiss, Student A.,
et al., v. Berkeley Unified Sch. Dist., et al., No. 17-cv02510-JST, 2017 WL 4551514 (N.D. Cal. Oct. 12, 2017)
and (2) Order Denying Mot. to Dismiss, Abraham P. v.
Los Angeles Unified Sch. Dist., et al., No. 2:17-cv03105-GW, 2017 WL 4839071 (C.D. Cal. Oct. 5, 2017).
RJN, ECF 60. The CDE opposes Paul’s request for judicial notice on the grounds that Paul did not seek

App. 19
leave of the court to file additional material. Opp’n to
RJN, ECF 61.
Although no additional papers may be filed without prior Court approval once a reply is submitted, a
party may “bring to the Court’s attention a relevant judicial opinion published after the date the opposition
or reply was filed by filing and serving a Statement of
Recent Decision.” Civil L.R. 7-3(d)(2). The two decisions submitted by Paul were issued after the reply
was filed. As such, Paul’s submission of the two decisions is deemed as a Statement of Recent Decisions.
The Court, however, will not consider arguments contained in Paul’s request. Civil L.R. 7-3(d)(2) (a party
may file a Statement of Recent Decision without argument).
C. Statutes
The following statutes are relevant to the issues
raised in the parties’ briefing.
i.

The Individuals with Disabilities
Education Act

The Individuals with Disabilities Education Act
(“IDEA”), 20 U.S.C. §§ 1400 et seq., was enacted to ensure that children with disabilities have access to a
free and appropriate public education (“FAPE”) that
meets their unique needs. Honig v. Doe, 484 U.S. 305,
309 (1988). Each state that receives federal special education funding must ensure that local educational

App. 20
agencies (“LEA”) are in compliance with the IDEA. Id.
at 310–11. A LEA is generally responsible for providing a FAPE to students with disabilities residing
within its jurisdictional boundaries. See Cal. Educ.
Code §§ 48200, 56028 (the residency statutes). In California, a county office of education is responsible for
direct provision of a FAPE except for services in State
Special Schools for deaf and blind students. Cal. Educ.
Code. §§ 59002, 59102.
LEAs must implement an “individualized educational program” (“IEP”) for each special needs student
and provide services directly to students. Id. § 56347;
20 U.S.C. § 1414(d); see also Honig, 484 U.S. at 311–12.
Pursuant to the IDEA, each state agency—in California, the CDE—is ultimately responsible for providing
services directly to students when the local education
agencies are “unable to establish and maintain programs
of free appropriate public education that meet the requirements” of the IDEA. 20 U.S.C. § 1413(g)(1)(B).
The IDEA provides formal procedures for resolving disputes. “[A] dissatisfied parent may file a complaint as to any matter concerning the provision of a
FAPE with the local or state educational agency (as
state law provides).” Fry v. Napoleon Cmty. Sch., 137
S. Ct. 743, 749 (2017) (citing 20 U.S.C. § 1415(b)(6)).
The parents “have an opportunity for an impartial due
process hearing, which [is] conducted by the State educational agency or by the local educational agency as
determined by State law or by the State educational
agency.” 20 U.S.C. § 1415(f ). The IDEA sets forth an exhaustion requirement:

App. 21
Nothing in [the IDEA] shall be construed to
restrict or limit the rights, procedures, and
remedies available under the Constitution,
the Americans with Disabilities Act of 1990
[42 U.S.C.A. § 12101 et seq.], title V of the Rehabilitation Act of 1973 [29 U.S.C.A. § 791 et
seq.], or other Federal laws protecting the
rights of children with disabilities, except that
before the filing of a civil action under such
laws seeking relief that is also available under
[the IDEA], the [IDEA administrative procedures] shall be exhausted to the same extent
as would be required had the action been
brought under this subchapter.
20 U.S.C. § 1415(l). As such, a complainant is required
to exhaust the administrative process, including filing
a complaint with the local or state agency, and attending to a “due process hearing” before an impartial hearing officer if the asserted claims are in reality claims
for denial of a FAPE. 20 U.S.C. § 1415; Fry, 137 S. Ct.
at 749.
ii. Section 504 of the Rehabilitation Act
of 1973 and Title II of the Americans
with Disabilities Act
In addition to the IDEA, other federal statutes
also protect students with disabilities. Section 504 of
the Rehabilitation Act of 1973 and Title II of the Americans with Disabilities Act (“ADA”) “cover both adults
and children with disabilities, in both public schools
and other settings.” Fry, 137 S. Ct. at 749. The ADA
precludes a “public entity” from discriminating based

App. 22
on disability, and the Rehabilitation Act applies the
same prohibition to any federally funded “program or
activity.” 42 U.S.C. §§ 12131–12132; 29 U.S.C. § 794(a).
Under Title II of the ADA, a public entity is required to make “reasonable modifications” to its “policies, practices, or procedures” when necessary to avoid
discrimination. 28 C.F.R. § 35.130(b)(7). Similarly, § 504
of the Rehabilitation Act requires “certain ‘reasonable’
modifications to existing practices in order to ‘accommodate’ persons with disabilities.” Fry, 137 S. Ct. at
749 (citing Alexander v. Choate, 469 U.S. 287, 299–300
(1985)). Both “statutes authorize individuals to seek
redress for violations of their substantive guarantees
by bringing suits for injunctive relief or money damages.” Id. at 750 (citing 29 U.S.C. § 794a(a)(2); 42 U.S.C.
§ 12133).
III. DISCUSSION
Paul claims that the CDE discriminated against
Paul by failing to provide an appropriate education, including proper support, services, and placement, in violation of § 504 of the Rehabilitation Act of 1973 and
Title II of the Americans with Disabilities Act. See SAC
¶¶ 48–49, 65–68, 73–74. In particular, the SAC alleges
that the CDE has failed to develop policies or procedures to ensure that in-state residential placements
are available for adult special education students and
has interfered with the students’ rights to receive a
FAPE. Id. ¶ 48.

App. 23
As a preliminary issue, the CDE argues that the
SAC contains only a minor amendment alleging that
“an IEP ‘is akin to a contract’ and ‘is a contract.’ ” Mot.
2 (citing SAC ¶¶ 11, 41, 51). According to the CDE, the
Ninth Circuit has held that an IEP is not a contract.
Id. Moreover, in the CDE’s view, even if Paul’s IEP was
contractual in nature, that characterization does not
change the fact that the SAC seeks relief premised on
an underlying purported denial of a FAPE and that
Paul has failed to exhaust his administrative remedies.
Id. In this regard, the CDE contends that Paul’s opposition cannot show how the SAC cures the deficiencies
identified by the Court’s prior order dismissing the
FAC and thus Paul has filed an “improper motion for
reconsideration.” Reply 1, ECF 58. The CDE raises numerous grounds for dismissing Paul’s claims, including
failure to exhaust administrative remedies, failure to
plausibly allege the elements of a discrimination claim,
and failure to join a required party. Paul has filed an
opposition arguing that he did exhaust his IDEA
claims and now seeks redress under the ADA and
§ 504. In addition to allegations regarding the purported contractual nature of an IEP, the SAC contains
other new allegations such as Paul had “no educational
program consistent with his agreed upon [IEP]” from
about July 2015 to February 2016 because the IEP “required placement in a residential treatment center.”
SAC ¶ 51.
The Court first addresses the CDE’s challenge based
on Paul’s purported failure to exhaust administrative

App. 24
remedies because the exhaustion requirement is dispositive.
A. Exhaustion of Administrative Process
The CDE asserts that Paul’s § 504 and ADA
claims are premised on a purported denial of a FAPE
under the IDEA. Mot. 11. On this basis, the CDE argues that exhaustion is required because the gravamen of Paul’s claims against the CDE is an alleged
denial of a FAPE. See id. at 8–9, 12 (citing Fry v. Napoleon Cmty. Sch., 137 S. Ct. 743, 752, 754–55, 757
(2017)). The CDE further contends that the SAC’s allegation that an “IEP is a contract” is neither legally correct nor changes the fact that Paul’s claims are
premised on a purported denial of a FAPE. Id. at 11–
12. Thus, in the CDE’s view, whether contract law applies or not is irrelevant. Id. at 12.
Paul disagrees with the CDE’s conclusion that
Paul is required to exhaust his IDEA administrative
remedies to bring the § 504 and ADA claims. Opp’n 6.
Specifically, Paul believes that the application of Fry
does not lead to the conclusion that his claims seek relief for denial of a FAPE. Id. at 6–8. In Paul’s view, he
is not challenging the adequacy of his IEP but rather
the “denial of his basic right to go to school.” Id.

App. 25
i.

The Gravamen of Paul’s Claims
against the CDE is a Denial of a
FAPE

Here, the parties essentially dispute whether the
gravamen of Paul’s § 504 and ADA claims against the
CDE is a denial of a FAPE under the IDEA. If the
claims are, then Paul must exhaust the administrative
process before he can seek judicial review of his claims.
20 U.S.C. § 1415; Fry v. Napoleon Cmty. Sch., 137 S. Ct.
743, 749 (2017).
In Fry, the Supreme Court held that whether the
IDEA’s exhaustion requirement applies “hinges on
whether a lawsuit seeks relief from the denial of a free
appropriate public education.” 137 S. Ct. at 754. As
such, the Supreme Court directed the courts to “look to
the substance, or gravamen, of the plaintiff ’s complaint” to determine whether the claims brought under
§ 504 of the Rehabilitation Act and ADA must be exhausted like an IDEA claim. Id. at 752. Fry suggested
the following questions to determine “whether the gravamen of a complaint” concerns the denial of a FAPE:
(1) could the claim be brought if the alleged conduct
occurred at a public facility that was not a school?; (2)
“could an adult . . . have pressed essentially the same
grievance?” Id. at 756 (emphasis in original). “[W]hen
the answer[s] [are] no, then the complaint probably
does concern a FAPE, even if it does not explicitly say
so.” Id. at 756. Fry also noted that the history of the
proceedings, such as a plaintiff ’s prior pursuit of a
remedy through the IDEA’s administrative process,

App. 26
“will often provide strong evidence that the substance”
of the claim concerns the denial of a FAPE. Id. at 757.
Under Fry’s guidance, the Court applies the above
questions to the allegations in Paul’s SAC. As for the
first question, the Court finds that the answer is “no”
because Paul’s allegations are based on his IEP and
thus his claims fail in the context of a public facility
that is not a school. In particular, the alleged denial to
provide an in-state residential treatment facility applies solely in a school setting. The answer to the second question is also negative because an adult cannot
press allegations based on an IEP and demand an instate residential treatment facility. As the SAC pleads,
special education students “may receive a free and appropriate public education until they turn twenty-two.”
SAC ¶ 46 (citing Cal. Edu. Code § 56026) (emphasis
added). Moreover, the fact that Paul has previously
pursued an IDEA administrative proceeding based on
identical or similar allegations supports the conclusion
that his claims are premised on a denial of a FAPE. See
Ex. 1 in Supp. of Mot. (“Paul’s Due Process Compl.”),
ECF 55-1; Fry, 137 S. Ct. at 757 (“A further sign that
the gravamen of a suit is the denial of a FAPE can
emerge from the history of the proceedings. In particular, a court may consider that a plaintiff has previously invoked the IDEA’s formal procedures to handle
the dispute.”). Accordingly, Fry’s inquiries as applied to
this case show that the “gravamen” of Paul’s § 504 and
ADA claims is a denial of a FAPE. In fact, the SAC alleges that the CDE has interfered with special education students’ rights to receive a FAPE. SAC ¶ 48.

App. 27
Paul contends that Fry’s guidance “[does] not work
[in Paul’s case] because there is [an] overlap between
the IDEA, [§] 504, and Title II.” Opp’n 8. For support,
Paul points out that Fry recognized that “[t]he same
conduct might violate all three statutes.” Id. (citing
Fry, 137 S. Ct. at 756). Paul then argues that Justices
Alito and Thomas criticized the use of the majority’s
hypothetical questions and consideration of the history
of the proceedings when there is an “overlap” between
the IDEA and other federal laws. Id. (citing Fry, 137
S. Ct. at 759) (Alito, J., concurring) (explaining that the
majority’s “clues” are “likely to confuse and lead courts
astray”). The CDE counters that Fry’s concurring opinion is not the law. Reply 3.
The Court is unpersuaded by Paul’s argument
that Fry is not applicable to Paul’s claims. The majority
in Fry recognized and addressed the concurring Justices’ concern. See Fry, 137 S. Ct. at 757 n.10. As the
majority explained, the “point of the questions is not to
show that a plaintiff faced with a particular set of circumstances could only have proceeded under Title II or
§ 504—or, alternatively, could only have proceeded under the IDEA.” Id. Rather, the questions provide a useful guide to “determine whether a plaintiff who has
chosen to bring a claim under Title II or § 504 instead
of the IDEA—and whose complaint makes no mention
of a FAPE—nevertheless raises a claim whose substance is the denial of an appropriate education.” Id.
(emphasis in original). Here, the SAC asserts only
§ 504 and ADA claims and thus the Court may rely on
Fry’s “clues” to determine whether the gravamen of

App. 28
Paul’s claims is a denial of a FAPE. As discussed above,
Fry’s hypothetical questions as applied to Paul’s case,
as well as an examination of the history of the proceedings, leads to the conclusion that the gravamen of
Paul’s § 504 and ADA claims is the denial of a FAPE.
Thus, the exhaustion requirement applies.
ii. Paul’s Claims for Damages Are Subject to the Exhaustion Requirement
In the SAC, Paul seeks both injunctive relief and
damages against the CDE. SAC ¶¶ 76–80. Paul argues
that “monetary damages are not an available remedy
under the IDEA” and thus exhaustion is not required.
Opp’n 11. In Paul’s view, his relief for damages is a
remedy that an IDEA hearing officer may not award.
Id. However, a plaintiff may not avoid the IDEA’s exhaustion requirement through artful pleading or by
merely limiting a prayer for relief to money damages.
Payne v. Peninsula Sch. Dist., 653 F.3d 863, 877 (9th
Cir. 2011) (en banc), overruled in part on other grounds,
Albino v. Baca, 747 F.3d 1162, 1171 (9th Cir. 2014) (en
banc). As explained below, the Court finds that the
SAC’s claims for damages are “premised on a violation
of the IDEA” so that “the relief follows directly from the
IDEA,” and therefore those claims are subjection [sic]
to the exhaustion requirement. Id. at 875, 882.
In Fry, the Supreme Court declined to reach the
issue of whether exhaustion is required when a plaintiff seeks monetary damages. 137 S. Ct. at 752 (“[W]e
leave for another day a further question about the

App. 29
meaning of § 1415(l): Is exhaustion required when the
plaintiff complains of the denial of a FAPE, but the specific remedy she requests—here, money damages for
emotional distress—is not one that an IDEA hearing
officer may award?”). Because the Supreme Court did
not resolve the question, the Court looks to the Ninth
Circuit’s opinion on this issue. Specifically, the Court
looks to Payne v. Peninsula Sch. Dist. in which the
Ninth Circuit addressed whether the IDEA’s exhaustion requirement applies when a plaintiff seeks damages. 653 F.3d 863 (9th Cir. 2011) (en banc). During the
hearing, the parties disagreed on Payne’s application
to this case.
In Payne, the Ninth Circuit held that the IDEA requires exhaustion in three situations. First, exhaustion is required when a “plaintiff seeks an IDEA
remedy or its functional equivalent.” Payne, 653 F.3d
at 875. For example, if a disabled student brings an
ADA suit and “seeks damages for the costs of a private
school education, the IDEA requires exhaustion.” Id.
Second, “the IDEA requires exhaustion in cases where
a plaintiff seeks prospective injunctive relief to alter
an IEP.” Id. Third, exhaustion is required when a
plaintiff seeks to enforce rights that arise as a result of
a denial of a FAPE, even if the claim is based on a cause
of action other than the IDEA. Id. Regarding the third
situation, Payne held that if a claim for damages under
§ 504 of the Rehabilitation Act is “premised on a denial
of a FAPE,” “the relief follows directly from the IDEA
and is therefore ‘available under this subchapter.’ ” Id.
(citing 20 U.S.C. § 1415(l)). The court further held that

App. 30
“to the extent that a request for money damages functions as a substitute for relief under the IDEA, a plaintiff cannot escape the exhaustion requirement simply
by limiting her prayer for relief to such damages.” Id.
at 877. On the other hand, if “a plaintiff has laid out a
plausible claim for damages unrelated to the deprivation of a FAPE, the IDEA does not require her to exhaust administrative remedies before seeking them in
court.” Id.
The Ninth Circuit in Payne provided an example
on how to apply its holding. In that case, the plaintiff
alleged violations of the Fourth, Eighth, and Fourteenth Amendments and sought “general, special, and
punitive damages.” Payne, 653 F.3d at 883. The court
explained that the request for “general damages for extreme mental suffering and emotional distress” would
not constitute a relief under the IDEA if such damages
were intended to compensate the plaintiff for injuries
resulting from the constitutional violations committed
by school officials. Id. On the other hand, exhaustion
would be required if the “emotional distress” stemmed
from the plaintiff ’s concern that an adequate education was not provided. Id.
Under Payne’s guidance, the Court turns to the
SAC’s allegations. The SAC alleges that the CDE has
failed to ensure that in-state residential treatment
placements are available for special education students who are eighteen to twenty-two years of age and
thereby interfered with the students’ rights to receive
a FAPE. SAC ¶ 49. Because Paul was eighteen years
old when the District offered a place in a residential

App. 31
treatment as part of his IEP, “there was no placement
in the entire State of California that would take him.”
Id. ¶ 39. According to the SAC, Paul became increasingly isolated and unhappy during the time he was not
in a residential program. Id. ¶ 56. The SAC further
pleads that “Paul has suffered substantial educational
and developmental losses, causing a permanent decline in his future development, which adversely affects his future earnings and earning potential, and
which has resulted in humiliation, pain, suffering,
damage to his social development and interpersonal
relations.” Id. ¶ 57. Paul also has been homesick after
being placed in a residential treatment facility in Kansas. Id. ¶ 58. In the prayer for relief, Paul requests
“[c]ompensatory damages for [his] injury, psychological
and emotional distress.” Id. ¶ 95.
Here, Payne’s first situation—when a plaintiff
seeks “an IDEA remedy or its functional equivalent”—
does not apply because Paul is not seeking damages as
the cost for “counseling, tutoring, or private schooling.”
Payne, 653 F.3d at 875, 877. On the other hand, the
Court finds that the third situation listed in Payne is
applicable here. Id. at 875 (holding that exhaustion is
required when a plaintiff ’s claim for damages is “premised on a denial of a FAPE”). The SAC’s allegations
show that Paul’s harm—including educational and development losses, pain and damage to his social development, and emotional distress—stems from his
purported deprivation of receiving a FAPE, in particular, for not being placed at an in-state residential treatment facility. See SAC ¶¶ 56–57. In other words, Paul’s

App. 32
damages claims are “premised on a violation of the
IDEA” and thus arise under the IDEA’s “substantive
standards.” Payne, 653 F.3d at 875. As such, “the relief
follows directly from the IDEA” and exhaustion is required. Id. at 875; see also id. at 883 (holding that exhaustion would be required if the “emotional distress”
stemmed from the plaintiff ’s concern that an adequate
education was not provided); Cayla R. v. Morgan Hill
Unified Sch. Dist., No. 5:10-CV-04312 EJD, 2012 WL
1038664, at *5 (N.D. Cal. Mar. 27, 2012) (requiring
exhaustion where the student “lost the benefit of participating in the community and interacting with
other students” and the claims stemmed from a
denial of a FAPE); C.R. v. Lodi Unified Sch. Dist., No.
216CV00062, 2016 WL 4474604, at *1, 3 (E.D. Cal. Aug.
25, 2016) (requiring exhaustion where the alleged conduct violated the IDEA and caused “severe emotional
distress” to the student). Accordingly, the Court finds
that the SAC’s claims for damages stem from the purported denial of a FAPE and are subject to the exhaustion requirement.
Paul argues that Payne explains that “[i]f a plaintiff can identify a school district’s violation of federal
laws other than the IDEA and can point to an authorized remedy for that violation unavailable under the
IDEA, then there is no reason to require exhaustion
under § 1415(l).” Opp’n 11 (citing Payne, 653 F.3d at
881). This statement does not change the above conclusion. In Payne, the Ninth Circuit was considering the
situation where there is no remedy available “under
the IDEA” for a non-IDEA violation. In such a

App. 33
situation, no claim is premised on a denial of a FAPE.
In contrast, as explained above, Paul’s alleged harm
stems from a purported denial of a FAPE (i.e., an IDEA
violation) and so “the relief follows directly from the
IDEA.” Payne, 653 F.3d at 875.
For the above reasons, the Court finds that Paul is
required to exhaust his administrative remedies to
bring the asserted damages claims under § 504 and the
ADA.
iii. Paul Did Not Exhaust His Administrative Remedies
Paul claims that he did exhaust administrative
remedies to the extent possible. Opp’n 10. Paul asserts
that he filed a due process complaint against the CDE
but that the OAH dismissed the CDE on the grounds
that it lacked jurisdiction over the CDE. Id. (citing Ex.
2 in Supp. of Mot. (“OAH’s Order”), ECF 55-2). Paul argues that requiring exhaustion of the due process hearing procedure against the District does not make sense
because Paul would not be able to enforce the OAH’s
decision against the CDE when the CDE is not a party
to the administrative procedure. Id. at 10.
The Court disagrees with Paul’s argument. “Exhaustion of the administrative process allows for the
exercise of discretion and educational expertise by
state and local agencies, affords full exploration of
technical educational issues, furthers development of
a complete factual record, and promotes judicial efficiency by giving these agencies the first opportunity to

App. 34
correct shortcomings in their educational programs for
disabled children.” Hoeft v. Tucson Unified Sch. Dist.,
967 F.2d 1298, 1303 (9th Cir. 1992). The OAH’s finding
that a student has been denied a FAPE may further
lead to a determination whether the District is “unable
to establish and maintain programs of [FAPE]” pursuant to 20 U.S.C. § 1413(g)(1)(B). Without such a determination, the CDE is not obligated to step into the
District’s shoes and “to provide special education and
related services directly to children with disabilities.”
See 20 U.S.C. § 1413(g)(1)(B). In this case, the CDE’s
obligation was not triggered because Paul settled his
case with the District and dismissed his due process
complaint. Ex. 3 in Supp. of Mot., ECF 55-3. The administrative proceeding before the OAH did not develop a factual record and resulted in no finding
whether Paul has been denied a FAPE for the reason
that he was not placed in an in-state residential treatment facility. Allowing the state agencies to exercise
their expertise to fully explore technical educational
issues and develop a complete factual record is the reason why the IDEA contains an exhaustion requirement. Hoeft, 967 F.2d at 1303. If Paul were permitted
to seek relief from this Court without affording the
state the opportunity to address Paul’s case in the first
instance, the result would eviscerate the very goal of
the IDEA’s exhaustion requirement. Id. (“The exhaustion requirement “embodies the notion that ‘agencies,
not the courts, ought to have primary responsibility for
the programs that Congress has charged them to administer.’ ” (internal quotation omitted)).

App. 35
Other courts have reached similar conclusions. For
example, in Rivera v. Fremont Union High Sch. Dist.,
the plaintiff filed a complaint with the OAH against
the school district and the CDE for failing to “develop
residential placements for special education students
aged 18 through 22 in California.” No. 12-05714-EJD,
2013 WL 4674831, at *1 (N.D. Cal. Aug. 30, 2013).
Without a full hearing, the OAH dismissed the complaint against the district for the plaintiff ’s lack of
standing on behalf of the student and against the CDE
for lack of jurisdiction. Id. The plaintiff then filed suit
in federal court. Id. Subsequently, the student was
placed in an out-of-state residential facility and stipulated to dismiss the district. Id. Against this backdrop,
Rivera found that the administrative remedies were
not exhausted without a finding by the OAH that the
student “was denied a FAPE.” Id., at *2. The court reasoned that a resolution of the OAH’s proceeding “on the
merits” as to the student’s FAPE was necessary for exhaustion. Id. (“The court simply cannot order [the]
CDE to effect systemic change without at the very
least a determination that the Student was denied a
FAPE.”); see also 20 U.S.C. § 1415(i)(2)(C) (premising
the court’s ability to order appropriate relief based primarily on its review of the underlying administrative
record). Paul attempts to discount Rivera by arguing
that the case was dismissed based on standing issues
rather than a failure of exhaustion. Opp’n 9 n.1. However, as discussed above, the court in Rivera makes
clear that the resolution of the OAH’s proceeding on
the merits is necessary for exhaustion under the IDEA.

App. 36
Similar to Rivera, the plaintiff in Washington v.
Cal. Dep’t of Educ. sought a residential program in California. No. 10-0186, 2010 WL 4157139, at *6 (E.D. Cal.
Oct. 19, 2010). In that case, the plaintiff previously
filed an administrative complaint with the OAH. Id.,
at *5–6. However, the prior administrative action did
not result in adjudication on the merits because the
plaintiff entered into a settlement agreement. Id., at
*6. The court held that the plaintiff ’s claims were subject to exhaustion because “a necessary exploration of
the issues was never accomplished” in the prior administrative action as the OAH did not adjudicate the merits of the plaintiff ’s claims due to the settlement. Id.
Here, again Paul attempts to discount Washington. In
doing so, he points out that the Ninth Circuit affirmed
Rivera in a short unpublished decision while a dissent
in the three judge panel disagreed. Opp’n 9. However,
as the CDE points out (Reply 4), the dissent’s opinion
is not the law and the Court is not bound by it.
For the above reasons, the Court is not persuaded
by Paul’s arguments that he has exhausted administrative remedies before the OAH. If OAH makes a determination pursuant to a full hearing that Paul needs
an in-state residential treatment facility, then the
CDE’s obligations could be triggered under 20 U.S.C.
§ 1413(g)(1)(B), assuming the District is unable to provide that FAPE. If the OAH denies Paul’s request, Paul
could appeal the OAH decision to this Court. As such,
regardless of the outcome of the OAH decision, exhaustion is necessary to trigger the CDE’s obligation or to
provide this Court a substantive record for an appeal.

App. 37
Although Paul made the difficult decision to settle
with the District rather than proceed with a full OAH
hearing, that decision cannot obviate the exhaustion
requirement. Rivera, 2013 WL 4674831, at *3 (the complainant “must bear the consequences that flow from
[the decision to settle]”); see also Washington, 2010 WL
4157139, at *6.
iv. Paul’s Claims are Not Subject to Exceptions to the Exhaustion Requirement
Paul argues that there are exceptions to the exhaustion requirement and that his case falls under the
exceptions. Opp’n 10–12. The IDEA’s exhaustion requirement is not absolute for there are situations
where exhaustion serves no purpose. Hoeft v. Tucson
Unified Sch. Dist., 967 F.2d 1298, 1303 (9th Cir. 1992).
The Ninth Circuit recognized the following exceptions
to the exhaustion requirement: “(1) it would be futile
to use the due process procedures”; “(2) an agency has
adopted a policy or pursued a practice of general applicability that is contrary to the law; and (3) it is improbable that adequate relief can be obtained by
pursuing administrative remedies (e.g., the hearing officer lacks the authority to grant the relief sought).” Id.
at 1303–04 (citation omitted). Here, the Court finds
that the SAC does not contain allegations that support
Paul’s contention that his § 504 and ADA claims
against the CDE fall under the exceptions.

App. 38
Paul first asserts that it would be futile for him to
proceed through a costly due process hearing because
the OAH determined that it lacked authority to provide the relief sought by Paul. Opp’n 10–11. Futility
applies in the narrow circumstance, such as when the
alleged “statutory violations [are] so serious and pervasive that basic statutory goals are threatened.”
Hoeft, 967 F.2d at 1304 (explaining that it would be futile if the claims involved “[s]erious due process violations [having] the practical effect of denying the
plaintiffs a forum for their grievances”). Here, Paul has
not shown due process violations that practically deny
him a forum for his grievance. As discussed above, Paul
is able to seek his relief regarding the need for an instate residential treatment facility by utilizing the IEP
process to obtain an express requirement of in-state
residential education. If such a request were denied
then Paul could submit his complaint to the OAH. If
the local school district or OAH makes a determination
that Paul needs an in-state residential treatment facility and that the LEA is unable to provide that service,
then the CDE’s obligations could be triggered under 20
U.S.C. § 1413(g)(1)(B). If Paul’s request is denied, he
could appeal the OAH’s decision to federal court where
a decision could be made based on the developed factual record. This Court may not simply order the “CDE
to effect systemic change without at the very least a
determination” that Paul was denied a FAPE based on
a need for an in-state residential placement. Rivera,
2013 WL 4674831, at *6. In fact, the Court’s relief regarding a denial of a FAPE is premised on its review
of the underlying administrative record. Id. (citing

App. 39
§ 1415(i)(2)(C)). Accordingly, the Court is unpersuaded
by Paul’s argument that his claims fall under the futility exception.
This case also does not qualify for the exception
where “an agency has adopted a policy or pursued a
practice of general applicability that is contrary to the
law.” This exception may apply when purely legal questions are involved. See Hoeft, 967 F.2d at 1305. However, “[s]tructuring a complaint as a challenge to
policies, rather than as a challenge to an individualized education program formulated pursuant to these
policies[ ] . . . does not suffice to establish entitlement
to a waiver of the IDEA’s exhaustion requirement.” Id.
at 1034. Here, Paul’s challenge to the CDE’s purported failure to provide in-state residential treatment facilities is a “technical question of educational
policy and methodology” which involves decisions of
eligibility and whether an in-state treatment program
is necessary to the educational needs. Id. at 1306. Such
decisions are best addressed with a “preliminary administrative review before being addressed by the
federal courts.” Id. As stated in the prior order dismissing the FAC, this Court is best served with the benefit
of agency expertise and an administrative record, before determining whether the CDE’s failure is contrary
to law. Id. at 1308; see also Washington, 2010 WL
4157139, at *6 (noting “whether [the] plaintiff is entitled to a residential program in California and, if so,
which parties are responsible for affording her this
relief, are “classic examples of the kind of technical
questions of educational policy that should initially be

App. 40
resolved with the benefit of agency expertise and a
fully developed administrative record”).
Paul appears to further argue that the third exception applies because he is seeking “a systemic
change by asking that the CDE develop policy and procedure to ensure adult special education students have
access to residential placements here in the [S]tate of
California.” Opp’n 11–12. Paul relies on the OAH’s
characterization of his relief as “systemic” in nature
and the fact that the OAH stated that it had no authority to order such relief. Id. at 12 (citing OAH’s Order
3). The Court is unpersuaded by Paul’s argument for
the same reasons discussed for the futility exception.
Although the OAH determined that it lacked authority
to provide the type of systemic relief Paul requests, 20
U.S.C. § 1413(g)(1)(B) provides an avenue for the CDE
to step into the LEA’s role under certain circumstances. As explained earlier, before the CDE’s obligation is triggered, there must be a determination that
the District “is unable to establish and maintain programs of [FAPE].” 20 U.S.C. § 1413(g)(1)(B). The OAH
must first make a determination on the merits regarding Paul’s need for an in-state residential treatment
facility which the LEA fails to accomplish. Only then
will the CDE’s obligations be triggered pursuant to
§ 1413(g)(1)(B). If the OAH denies Paul’s request, he
could appeal that denial to this Court. Without a determination that Paul was denied a FAPE, this Court may
not simply order the “CDE to effect systemic change.”
Rivera, 2013 WL 4674831, at *6.

App. 41
As a Statement of Recent Decision, Paul submitted Student A., et al., v. Berkeley Unified Sch. Dist., et
al., No. 17-cv-02510-JST, 2017 WL 4551514 (N.D. Cal.
Oct. 12, 2017). In Berkeley Unified, the plaintiffs
brought a “systemic” claim alleging that the local
school district and board of education failed to “put into
effect policies, procedures, and programs that ensure
. . . that all students with eligible conditions . . . are
provided appropriate special education.” 2017 WL
4551514, at *3–4. The court denied the defendants’
motion to dismiss for failure to exhaust. Id., at *5.
Berkeley Unified is distinguishable because there the
plaintiffs pled that they filed various compliant resolution process complaints (“CRPs”) with the CDE. Id., at
*4. The court recognized that “CRPs can suffice for exhaustion purposes under several different circumstances.” Id. (citation omitted). Unlike Berkeley
Unified, Paul does not allege that he has filed a CRP
with the CDE. In fact, Paul did not represent that he
has done so when the Court inquired during oral argument. Therefore, the Court does not find that Berkeley
Unified is applicable to this case.
As a final point, Paul argues that public policy and
equitable considerations weigh against a rigid application of the IDEA’s exhaustion requirement. Opp’n 12.
First, Paul contends that the “purpose of the exhaustion requirement, to defer ‘expert determinations’
about the educational programs to the experts is not
served in this case because there is no dispute about
the educational program that Paul requires to receive
a FAPE.” Id. On this premise, Paul claims that the

App. 42
exhaustion requirement should not apply. Id. The
Court, however, disagrees with that premise. Paul
seeks relief regarding his alleged need for an in-state
residential treatment facility. However, the SAC does
not plead that Paul’s IEP requires an in-state residential treatment facility. As such, it appears that there
has been no expert determination on whether Paul
needs the type of residential placement he seeks as a
relief.
Second, Paul asserts that a finding that he failed
to exhaust his administrative remedies because he settled his IDEA dispute with the District would set a
precedent that “encourag[es] litigation between students and school districts even when no dispute exists.”
Opp’n 12. The Court is unpersuaded by this argument.
If there is no dispute, there is no reason why a student
would engage in litigation. The student can always file
a complaint with the OAH when an actual dispute
arises. The Court does not find that any concern raised
by Paul outweighs the IDEA’s exhaustion rationale to
allow “the exercise of discretion and educational expertise by state and local agencies” and to “promote[ ] judicial efficiency by giving these agencies the first
opportunity to correct shortcomings in their educational programs for disabled children.” Hoeft, 967 F.2d
at 1303.
v.

Conclusion

For the above reasons, the Court finds that Paul’s
§ 504 and ADA claims against the CDE are subject to

App. 43
the IDEA’s exhaustion requirement and that no exception applies. Those claims are dismissed for failing to
exhaust the administrative remedies.
B. The CDE’s Remaining Grounds
As the Court has found that Paul’s claims based
on § 504 of the Rehabilitation Act and Title II of the
ADA against the CDE must be exhausted prior to judicial review, the remaining arguments raised by the
CDE are moot.
The CDE argues that Paul fails to allege the elements of a discrimination claim in support of the § 504
and ADA claims. Mot. 12–16. Such claims concerning a
denial of a FAPE must be exhausted. Without exhaustion, these claims must still be dismissed regardless of
whether the elements of a discrimination claim are
met.
In addition, the CDE contends that the Department of Social Services (“DSS”) is the state agency that
licenses residential facilities and must be joined to the
extent that Paul seeks changes that impact residential
placement in California for adult students with disabilities. Id. at 16–17. Because Paul’s claims based on
§ 504 and the ADA against the CDE must be dismissed
for failure of exhaustion, the Court need not determine
whether the DSS is a required party.

App. 44
C. Leave to Amend
In deciding whether to grant leave to amend, the
Court must consider the factors set forth by the Supreme Court in Foman v. Davis, 371 U.S. 178 (1962),
and discussed at length by the Ninth Circuit in Eminence Capital, LLC v. Aspeon, Inc., 316 F.3d 1048 (9th
Cir. 2009). A district court ordinarily must grant leave
to amend unless one or more of the Foman factors is
present: (1) undue delay, (2) bad faith or dilatory motive, (3) repeated failure to cure deficiencies by amendment, (4) undue prejudice to the opposing party, and
(5) futility of amendment. Eminence Capital, 316 F.3d
at 1052.
This Court has considered the factors set forth in
Foman, and finds that there are sufficient justifications to deny leave to amend under the circumstances.
This order constitutes the Court’s second intensive inquiry into the sufficiency of the pleadings. When the
Court dismissed the first amended complaint, it did so
with leave to amend and advised Paul to allege adequate facts to demonstrate that his claims would not
be subject to the exhaustion requirement in accordance with the principles articulated in Fry v. Napoleon
Cmty. Sch., 137 S. Ct. 743 (2017). However, the SAC’s
§ 504 and ADA claims continue to concern a denial of
a FAPE and are subject to the exhaustion requirement.
Paul’s SAC and opposition to this motion proffer no additional facts or legal bases that could remedy this deficiency. Paul’s failure to cure the identified deficiency
and lack of indication that he may be able to do so show
that leave to amend would be futile.

App. 45
Also importantly, the weightiest Foman factor,
prejudice to the CDE, is implicated in this case. The
CDE has now twice successfully dismissed the claims
for failure to exhaust administrative remedies. The
SAC’s allegations are similar to the earlier dismissed
FAC, and the CDE has argued similar issues that were
present in its motion to dismiss the FAC. Requiring the
CDE to continue to defend this lawsuit when Paul has
not demonstrated or represented that he can successfully amend, constitutes undue prejudice. Foman
makes clear that undue prejudice to the opposing party
by virtue of allowance of the amendment can weigh
against Rule 15’s liberal standard. 371 U.S. at 182.
For these reasons, the Court finds that leave to
amend the dismissed claims is not warranted.
IV. ORDER
For the foregoing reasons, IT IS HEREBY ORDERED that the CDE’s motion to dismiss is
GRANTED as to Counts I and II (§ 504 of the Rehabilitation Act of 1973 and the Americans with Disabilities
Act claims) asserted against the CDE without leave to
amend. This dismissal is without prejudice to Paul’s
right to reassert these claims in the event that there
is a future IEP determination that results in a new
OAH proceeding that concludes with a decision against

App. 46
Paul’s claims. The District is now the only remaining
defendant in this action.3
IT IS SO ORDERED.
Dated: June 8, 2018
/s/ Beth Labson Freeman
BETH LABSON FREEMAN
United States District Judge

3
The District and Paul stipulated that the District’s Answer
(ECF 27) to the FAC will serve as the operative Answer to the
SAC. ECF 53.

App. 47
UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF CALIFORNIA
SAN JOSE DIVISION
PAUL G.,

Case No. 16-cv-05582-BLF

FINAL JUDGMENT
AS TO DEFENDANT
v.
CALIFORNIA DEPARTMONTEREY PENINSULA MENT OF EDUCATION
UNIFIED SCHOOL
DISTRICT, et al.,
Plaintiff,

Defendants.
Pursuant to this Court’s order granting Defendant
California Department of Education’s Motion to Dismiss Second Amended Complaint (ECF 67) and order
granting Plaintiff Paul G.’s Motion for Certified Judgment Pursuant to Fed. R. Civ. P. 54(b) (ECF 73),
IT IS ORDERED AND ADJUDGED that judgment be entered in favor of Defendant California Department of Education and against Plaintiff Paul G.
IT IS SO ORDERED.
Dated: July 20, 2018
/s/ Beth Labson Freeman
BETH LABSON FREEMAN
United States District Judge

App. 48
BEFORE THE
OFFICE OF ADMINISTRATIVE HEARINGS
STATE OF CALIFORNIA
In the Matter of:
PARENT ON BEHALF
OF STUDENT,
v.
MONTEREY PENINSULA
UNIFIED SCHOOL
DISTRICT, CALIFORNIA
DEPARTMENT OF EDUCTION AND CALIFORNIA
DEPARTMENT OF SOCIAL
SERVICES.

OAH Case No.
2015080011
ORDER GRANTING
CALIFORNIA
DEPARTMENT OF
EDUCATION’S
MOTION TO DISMISS

On September 3, 2015, Student’s amended complaint was filed with the Office of Administrative Hearings. In the amended complaint, Student alleges that
Monterey Peninsula Unified School District denied
him a free appropriate public education during the
2013-2014, 2014-2015, and 2015-2016 school years.
Student also alleges that the California Department of
Education and the Department of Social Services denied Student a FAPE by failing to ensure that appropriate residential treatment facilities are available in
California for persons eligible for special education
services who, like Student, are between 18 and 22
years of age. Student seeks to have OAH order that
CDE and DSS develop residential treatment centers in
California for students between the ages of 18 and 22.

App. 49
On August 31, 2015, CDE filed a motion to dismiss
on grounds that it is a state education agency and has
only “general oversight responsibility” rather than being responsible for providing Student with a free appropriate public education.
On September 3, 2015, Student filed an opposition
to CDE’s motion. On September 8, 2015, CDE filed a
reply to Student’s opposition.
APPLICABLE LAW AND DISCUSSION
Parents have the right to present a complaint
“with respect to any matter relating to the identification, evaluation, or educational placement of the child,
or the provision of a free appropriate public education
to such child.” (20 U.S.C. § 1415(b)(6); see also Ed.
Code, § 56501, subd. (a).) The jurisdiction of OAH is
limited to these matters. (Wyner v. Manhattan Beach
Unified Sch. Dist. (9th Cir. 2000) 223 F.3d 1026, 10281029.) OAH may dismiss a matter in its entirety, or one
or more claims, where it is evident from the face of the
complaint that the alleged issues fall outside of OAH
jurisdiction or the pleaded facts cannot sustain a claim.
Such circumstances may include, among other things,
complaints that assert civil rights claims or claims
seeking enforcement of a settlement agreement, or
that assert claims against an entity that cannot be legally responsible for providing special education or related services under the facts alleged.
Special education due process hearing procedures
extend to the parent or guardian, to the student under

App. 50
certain conditions, and to “the public agency involved
in any decisions regarding a pupil.” (Ed. Code, § 56501,
subd. (a).) The “public agency” may be “a school district,
county office of education, special education local plan
area, . . . or any other public agency . . . providing special education or related services to individuals with
exceptional needs.” (Ed. Code, §§ 56500 and 56028.5.)
California law places the primary responsibility
for providing special education to eligible children on
the local education agency, usually the school district
in which the parents of the child reside. (See, e.g., Ed.
Code §§ 56300, 56340 [describing local educational
agency responsibilities].) The law also contemplates
that, when a parent disputes the educational services
provided to the special needs child, the proper respondent to the due process hearing request is the local
education agency. (See, e.g., Ed. Code, 56502, subd.
(d)(2)(B) [local education agency’s response to due process complaint].) Only in unusual circumstances does
California law deviate from that statutory scheme to
require a different entity to provide those services.
Under the Individuals with Disabilities Education
Act, a state educational agency, such as CDE is responsible for “general supervision” of state special education programs to ensure among other things, that IDEA
requirements are met. (20 U.S.C. §1412(a)(11)(A). CDE
is generally not a proper party proper respondent in
a due process case under IDEA, because it is not a
provider of special education services to children or
“involved in any decisions regarding [the] pupil.” (Ed.
Code § 56501, subd. (a).)

App. 51
CDE brought its motion to dismiss on the basis
that it is not a proper party to this action because it is
not an agency providing special education services to
Student. CDE argues that it is not required to ensure
the availability of in-state residential placements for
students over the age of 18 because the law does not
mandate any particular location for residential placements. It also contends that there is no private right of
action against the CDE with regard to its general supervisory responsibilities, that it does not license residential facilities in California, and that it has never
denied certification of a non-public school providing
the educational component of a residential placement
made by an local educational agency on the grounds it
proposed to serve students over the age of 18.
Student argues that CDE became involved when
it failed in its responsibility to ensure that in-state residential placements existed for students between the
ages of 18 and 22. Student claims, in effect, that by failing to address this long standing issue with regard to
all students, it denied Student a FAPE.
Here, the allegations in the complaint make it
clear that CDE did not provide any educational services to Student and that it was not involved in decisions regarding Student. Instead, Student relies upon
CDE’s general oversight authority of California special
education law as the foundation for its claim against
the CDE. However, that is not a proper basis for a due
process case against CDE under the facts alleged in
this case. (See M.M. v. Lafayette School District (9th
Cir. 2011) 767 F.3d 842, 860.)

App. 52
In unusual circumstances, such as a situation in
which California law fails to designate a local educational agency with responsibility to address a child’s
education, CDE may be a proper party, by default. (See
Orange County Department of Education v. California
Department of Education (9th Cir. 2011) 668 F.3d 1052,
1063.) However, Student has not alleged any facts to
show that a responsible local educational agency does
not exist. Furthermore, CDE may also be the responsible public agency in due process hearings involving
students attending the state schools for the deaf and
for the blind that are operated by CDE. (Ed. Code,
§§ 59002; 59102). However, Student makes no claim of
a state school’s involvement; thus, this exception is also
inapplicable.
Here, Student’s claims are beyond the jurisdiction
of OAH in a due process case. A due process case examines an individual offer of placement and services
to see if it provided a particular child with a FAPE. In
this case, OAH has no jurisdiction to order the type of
statewide policy changes Student seeks such as ordering CDE to create in-state placements for students
over the age of 18. Any remedy addressing Student’s
allegations against CDE would amount to structural
and systemic statewide relief, not just relief for Student. Complaints for such structural and systemic relief are beyond the jurisdiction of OAH. Accordingly,
CDE’s motion to dismiss is granted.

App. 53
ORDER
1.

California Department of Education’s Motion
to Dismiss is granted.

2.

California Department of Education is dismissed as a party in the above-entitled matter.

DATE: September 21, 2015
/S/
LAURIE GORSLINE
Administrative Law Judge
Office of Administrative Hearings

[Declaration Of Service Omitted]

App. 54
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
PAUL G., a conserved adult; by No. 18-16536
and through his conservator
D.C. No.
Steve G.,
5:16-cv-05582-BLF
Northern District
Plaintiff-Appellant,
of California,
v.
San Jose
MONTEREY PENINSULA
UNIFIED SCHOOL DISTRICT; ORDER
CALIFORNIA DEPARTMENT (Filed Nov. 21, 2019)
OF EDUCATION,
Defendants-Appellees.
Before: SCHROEDER and M. SMITH, Circuit Judges,
and RAKOFF,* District Judge.
The full court has been advised of the petition for
rehearing en banc and no judge has requested a vote
on whether to rehear the matter en banc. Fed. R. App.
P. 35. The petition for rehearing en banc, Docket No.
34, is DENIED.

* The Honorable Jed S. Rakoff, United States District Judge
for the Southern District of New York, sitting by designation.

